Appendix A. Scope and Methodology
        The mission of the NRO is to develop and operate unique and innovative space
reconnaissance systems and conduct intelligence-related activities essential for the national
security of the United States. The Director, NRO, delegated the authority and responsibility to
conduct audits within the NRO to the Inspector General (IG), NRO. Personnel within the NRO
Office of the Assistant Inspector General for Audits (OAIGA) execute the audits within NRO.
The OAIGA is responsible for enhancing economy, efficiency, effectiveness, and accountability
within the NRO by performing independent audits of NRO operations and programs. The
OAIGA also makes recommendations to correct problems and deficiencies identified by the
independent audits; keeps the Director, NRO, informed; and promotes effectiveness in the
administration of NRO operations and programs. The NRO Inspector General Audit Policy &
Procedures Manual, dated May 1, 2000, and the Draft National Reconnaissance Office Inspector
General Audit Policy & Procedures Manual, dated March 2003, provide guidance on the
operation of audits within the NRO OAIGA.

        The review team tested compliance with the OAIGA system of quality control to the
extent considered appropriate. The tests included reviewing a judgmental sample of six of nine
audit reports issued by the NRO OAIGA during the year ended July 31, 2003.

        From July 2003 through January 2004, the external review team conducted a review of
the audit quality control function for the NRO Office of the Inspector General in effect for the
period from August 1, 2002, through July 31, 2003. The team used the guidelines and checklists
established by the President’s Council on Integrity and Efficiency as amended February 2002 to
ensure that the review was in conformance with GAS. The review team adjusted the President's
Council on Integrity and Efficiency (PCIE) guidelines and checklists as appropriate. In applying
the PCIE guidelines, the review team considered several factors such as the size of the OAIGA,
the degree of autonomy allowed, and the nature of the work. The review team reviewed working
papers for the selected audits, conducted interviews of professional and administrative staff
members, and performed tests of documentation.

       We used the 1994 version of the Government Auditing Standards, as amended, including
the amendment of the Independence Standard, which became effective in January 2003. Where
appropriate we have provided suggestions for modifying operating procedures based on the 2003
version of the Government Auditing Standards, which became effective January 1, 2004.

          Limitations of Review. Our review would not necessarily disclose all weaknesses in
the system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures, departures
can result from misunderstanding of instructions, mistakes of judgment, carelessness, or other
human factors. Projecting any evaluation of a quality control system into the future is subject to
the risk that one or more procedures may become inadequate because conditions may change or
the degree of compliance with procedures may deteriorate.

       Review Team Composition. The audit quality control system review team consisted of
representatives from the Offices of the Assistant Inspectors General for Auditing, the National
Geospatial-Intelligence Agency, the National Security Agency, and the Central Intelligence
Agency (CIA). The Office of the Assistant Inspector General for Audit Policy and Oversight,
DoD provided oversight and prepared the report.


                                                1
Acronyms

CIA        Central Intelligence Agency
GAS        Government Auditing Standards
IPA        Independent Public Accountant
NRO        National Reconnaissance Office
OAIGA      Office of the Assistant Inspector General for Audits
OPM        Office of Personnel Management
PCIE       President’s Council on Integrity and Efficiency
RFP        Request for Proposal
SOW        Statement of Work




                                           2
Appendix B. Comments and Observations
        Based on our review, we have the following comments, observations, and
recommendations. These comments and observations did not affect our overall unqualified
opinion. However, the NRO OAIGA needs to continue its diligence to maintain an effective
system. Implementing the recommendations would improve the quality control system and help
to maintain an unqualified opinion. We received comments from the IG, NRO on a draft of this
report. We have made changes accordingly, summarized the comments below, and included a
copy of the comments.

Qualification Requirements for National Reconnaissance Office Audit Staff. The NRO staff
collectively possessed professional proficiency to perform the audits. However, we identified
one member of the OAIGA staff who was classified as an auditor but did not meet the usual
requirements for an auditor position.

        The individual had two degrees, one in Political Science and one in International
Relations, and had 19 years of information technology experience. The individual lacked
accounting or audit education and experience before taking this position. We were told that the
OAIGA uses the CIA qualifications standards, so we contacted the CIA Human Resources office
to obtain a copy of their auditor qualification standards. The CIA Human Resources office
referred us to the Assistant Inspectors General for Audits for CIA and NRO. Office of the
Inspector General CIA personnel had previously provided us with three CIA job announcements
that we were told included basic auditor qualifications. Based on the three job announcements,
the basic qualifications for auditor positions are:

       •   a college degree in accounting, finance, information systems, or business
           management with a solid academic record. Applicants were required or encouraged
           to have a degree with a major in one of these disciplines.

       •   2 to 5 years experience in conducting or participating in audits of Federal financial
           statements or in government auditing, accounting, or information systems as
           preferred or required.

The job announcements ranged in grades from GS-9 through GS-13 with career growth potential
to GS-15 and beyond. The OAIGA hired the individual in question as a GS-14 although that
individual did not meet any of the basic auditor qualifications that we were given.

        The OAIGA stated that it uses its own job announcements, which it did in this case to
hire the individual. The qualification standards for the job announcement against which the
individual in question was hired were:

       •   a college degree and specialized experience in work, which will enable the applicant
           to perform successfully the duties of the position, and

       •   experience typically related to such things as evaluating compliance with laws and
           regulations, or assessing the effectiveness, economy and efficiency of resource
           utilization; management processes and procedures; and in achieving mission
           objectives.




                                                3
         OAIGA can and should have technical specialists to provide specific knowledge and
skills, such as information technology. However, we believe that the NRO OAIGA should have
well-defined and consistent qualification standards for hiring its auditors.

        The Government Auditing Standards require that the audit team collectively possess
adequate professional competence for the tasks assigned. Although the Government Auditing
Standards do not address qualifications for auditors or other specialists in an audit organization,
the designation of auditor has specific expectations of education and experience in the
Government auditing community. Like the Government Auditing Standards, the PCIE* in the
“Quality Standards for Federal Offices of Inspector General,” October 2003, paragraph VIII. C.,
Core Competencies, states that staff members must collectively possess the professional
competence to perform the work assigned. However, the PCIE standards further state that “staff
must individually meet requirements established by the Office of Personnel Management (OPM)
for their respective job series and by applicable professional standards.” The OPM requirements
for auditors are a degree in accounting or related field such as business administration, finance,
or public administration that includes or is supplemented by 24 semester hours in accounting.
The OPM requirements for auditors allow for a combination of education and experience that
includes at least 4 years of experience in accounting or an equivalent combination of accounting
experience, college-level education, and training that provides knowledge of professional
accounting.

        Both the IG DoD and the IG CIA are members of the PCIE. Because NRO operates
under both DoD and CIA authorities, we believe that the OAIGA should adopt the PCIE
qualification standard for its auditor positions. Such an action is consistent with other Federal
audit organizations, which have personnel systems that do not follow OPM guidelines, but use
the OPM standards for auditors within their organizations and use other designations for
positions that do not meet those qualifications.

       Recommendation. We recommend that the Assistant Inspector General for Audits,
Office of the Inspector General, National Reconnaissance Office:

           •    Re-designate the individual who does not meet the basic auditor requirements to a
                position designation more in line with the individual’s education and experience.
           •    Establish consistent minimum qualifications of its staff members in accordance with
                PCIE standards.

        Management Comments. In a response to a draft of this report, the IG NRO
nonconcurred with the recommendation to re-designate the individual stating that neither the
new nor prior CIA personnel management systems allowed them to do so. The IG NRO
maintains that the individual meets the OPM defined standard. The IG NRO concurred in
principle with the recommendation to establish consistent minimum qualifications stating that
any vacancy announcements will include minimum education qualifications as well as audit
experience requirements for the entry through expert level auditor.

       Our Response. After reviewing additional information provided by the AIGA, we
continue to disagree that the one auditor met the OPM requirements as an auditor and continue to
believe that the individual did not meet the “usual” qualifications for an auditor as used by the
*
    The Executive Council on Integrity and Efficiency, which includes non-statutory Federal Inspectors General, are
    also a party to the Quality Standards for Federal Offices of Inspector General.


                                                           4
CIA. We continue to believe that the IG and AIGA could best serve the NRO audit organization
by working with the CIA personnel management staff to determine a way to include subject
matter experts within the audit office if future requirements dictate, rather than hire someone as
an auditor without minimum qualifications. Although the IG NRO did not opt to implement the
PCIE standard to use the OPM requirements for its auditors, they have indicated that they have
minimum qualifications that will be used to hire auditors. The identification of minimum
qualification standards for the different “grade” levels and the consistent application of those
qualification standards when recruiting and hiring auditors meets the intent of our
recommendation. However, we believe that AIGA should not establish auditor qualification
standards that are significantly different from qualification standards used by other Government
audit organizations. Other audit organizations within the PCIE/ECIE community and the
General Accounting Office use the OPM standards when designating someone as an “auditor.”
However, they recognize that other education and experiences are appropriate to provide
competent staff for their audits and will hire other staff other than “auditors,” but they generally
designate the individuals as something other than auditor, such as evaluator.

Qualifications of Independent Public Accountant Staff. Section L of the Request for
Proposal (RFP) for the contract on the NRO FY 2002 Financial Statements Audits established
minimum “satisfactory” qualifications of education and experience for the Independent Public
Accountant (IPA) staff - Project Manager and three key audit positions. The minimum
contractual educational and experience requirements for key positions #2 and #3 were either
CPA or meet the CPA educational requirements in the state employed, bachelors degree in
accounting or business, and a minimum of 5 years and 2 years, respectively, of general audit
experience, with desired experience in CFO audit work. In addition, RFP Clause I-12 specified
that all proposed substitutes for the key personnel must have “qualifications that are equal to or
higher than the qualifications of the person to be replaced.”

        For the NRO financial statement audit, the IPA contractor had a pattern of replacing staff
with other staff with lower qualifications despite the requirements. For key position #2, the
OAIGA accepted a replacement that did not meet the contract requirements because the IPA
stated that they had no other staff available to put on the NRO financial statement audits. For
key position #2, the reduced requirements were offset somewhat because the auditor had prior
experience with NRO financial statement audits. For key position #3, the OAIGA accepted a
replacement that met the requirements for education and experience but did not satisfy the
Clause I-12 requirement for equal to or higher than the person replaced.
        Given that two key personnel did not fully meet the requirements in the RFP, additional
quality control reviews could provide increased assurance of the adequacy of the work.
According to NRO audit staff, as a condition of accepting an individual without the same or
higher qualifications, the person in key position #1 increased the number of hours so that NRO
IG would be comfortable with the level of supervision on the audit. This was in accordance with
the statement of work (SOW) section 9.3, which requires the contractor to provide sufficient
senior qualified personnel to review working papers and direct senior and junior auditors.

       OAIGA staff indicated that they will reassess the key personnel clause for future
contracted audit services to determine whether the qualification requirements are appropriate.
They expressed an intention to consider lowering the qualification requirements as opposed to
having the IPA meet the current minimum certification, education, and experience requirements.
We believe the current “satisfactory” requirements delineated in the RFP for IPA staff are
reasonable. We also believe that Clause I-12, is potentially in conflict with Section L, key
personnel requirements.


                                                 5
       Recommendation. Along with reassessing the appropriate level of audit education,
experience, and certification for Independent Public Accountant staff, we recommend that the
Assistant Inspector General for Audits in preparing the RFP and contract for the next contract for
financial audit services work with the NRO acquisition and contracting officials to:

       •   Establish RFP requirements that reflect the intent and need to obtain qualified
           contract audit staff and maintain the qualified staff throughout the contract
           performance; and

       •   Ensure that statement of work contains the same material clauses as the RFP
           regarding contract personnel qualifications and substitution and replacement clauses.

        Management Comments. In response to a draft of this report, the IG NRO concurred in
principle with the recommendations to establish procedures for additional oversight and include
contract provisions for additional oversight. However, they stated that the existing SOW
includes adequate procedures. They will reexamine the procedures before issuing the next
contract. The IG NRO nonconcurred with the recommendations to delete Clause I-12 because
the NRO Acquisition Manual requires the clause. They also nonconcurred with the need to
modify the contract because the current contract ends in January 2005.

       Our Response. We revised our recommendation based on the IG comments and
subsequent information requested in conjunction with those comments. We request that the IG
NRO provide comments to the revised recommendations.

        Based on our review of the referenced SOW clauses, we disagree that the clauses meet
the intent of our recommendation to establish additional oversight procedures or actions if the
contractor does not meet the contractual requirements, nor was there consideration for not
meeting the contract requirements on qualifications of substituted personnel. The referenced
clauses give the contractor supervision and management requirements for contract compliance.
We, however, deleted those recommendations in light of revised recommendations as discussed
below. In the future, the NRO OAIGA staff should work with the contracting officer to ensure
that the contractor meets the contractual requirements.

         Our review of the Acquisition Manual requirements does not support the IG comment
that the manual requires the Clause I-12. The Acquisition Manual states “Because of the
restrictive nature of the requirement, the determination to use this clause should be made only in
exceptional cases.” We do not believe that such a statement implies that the clause is required.
Also, the Clause I-12 is different from the SOW clause 9.4. Clause I-12 was more restrictive
than what was included in the SOW. Clause I-12 required that a substituted key person have
equal to or higher qualifications than the person replaced. The SOW clause 9.4, Substitution
and Rotation of Personnel, stated that proposed personnel replacements must meet or exceed the
minimum professional experience, qualifications, capabilities, and security clearances required
by this contract. Also, the SOW clause 9.4 did not include or define the “minimum”
professional experience, qualifications and capabilities. However, the RFP gave “satisfactory
requirements” for the key positions in the RFP.

        We recognize that there are a number of ways to originally assemble a competent audit
team for the contract and to retain the competency of the team. However, when the
qualifications in the RFP do not match up with the SOW, or the contract requirements are not
enforced, offerors that lost the competition could question the fairness of the solicitation. The
SOW becomes the binding document and it should contain important provisions from the RFP.


                                                 6
We believe minimum qualifications for auditors and managers of the financial statement audit
contract are a material factor and important to the competition and to the performance of the
audit. We also believe that the substitution clause should be the same in the RFP and the SOW.
We continue to believe that the minimum qualification requirements in the RFP and the
requirements of Clause I-12 are potentially contradictory. The AIGA has stated that they are
reassessing the minimum auditor requirements to have a successful adequate audit of the NRO
financial statements audits in accordance with Government Auditing Standards. In conjunction
with the reassessment, we believe that the OAIGA should work with the NRO acquisition and
contracting staff to reassess how best to ensure that the audit team will meet the NRO needs and
what substitution requirements are appropriate. They should also work with the NRO
acquisition and contracting staff to ensure that the RFP and the SOW are consistent. We have
revised our recommendations to reflect the IG comments and analysis of additional information
provided.


         The contractor did not meet the terms of the contract in relation to staff qualifications for
new staff assigned to the team. We intended our recommendation to modify the contract in the
event of changes in its terms and conditions for future contracts as well as the current contract.
If the terms and conditions are changed without appropriate contract modifications, NRO is
potentially at risk in contract close out and future contract actions. We have deleted the
recommendation related to modifying the contract because we believe that the revised
recommendations if properly implemented, can eliminate the issues we identified. However,
NRO must ensure that the contractor comply with the terms and conditions of the contracts;
otherwise, a modification is necessary.

Auditor Independence. The revision to the Government Auditing Independence Standard,
effective January 2003, significantly strengthened the standard. The Comptroller General stated
that “protecting the public interest and ensuring public confidence in the independence of
auditors of government financial statements, programs, and operations, in both form and
substance” were paramount in his decision to issue these new standards. The standard requires
that the audit organization have an internal quality control system in place to help determine
whether auditors have any personal impairment to independence that could affect their
impartiality or the appearance of impartiality. Auditors are responsible for notifying the
appropriate officials within their audit organizations if they have any personal impairment to
independence. The revision also significantly strengthened the standard as it relates to non-audit
work.
NRO Staff Independence Guidance. The NRO Office of the Inspector General Audit Manual
placed responsibility on auditors to notify the Assistant Inspector General for Audits or other
Office of the Inspector General management official in writing of any personal impairment to
their independence. The Auditor-in-Charge (supervisor) is responsible to ensure that the audit
file addresses the requirement and includes evidence of compliance. We identified two instances
where documentation in the working papers identified that auditors notified their supervisors of
conflicts of interest. The analysis of the independence issue was in the working papers. The
OAIGA Quality Checklist addresses after-the-fact independence issues by questioning working
paper contents on impairments and report disclosure. However, given the emphasis on audit and
audit organization independence in recent years both within and outside Government, we believe
that NRO should consider a more proactive approach to its independence quality control
processes. For example, two common ways used in other audit organizations are that: (1)
auditors certify at the beginning of an audit to personal independence relative to that audit and
(2) auditors include a certification as part of their time/attendance documentation to their


                                                  7
personal independence relative to audit(s) or other projects worked on during that pay period. In
either case, the policy should require that the auditors notify their supervisors of any changes
subsequent to certification and that appropriate action be taken. According to the Assistant
Inspector General for Audits, the audit staff has begun to document auditor independence at the
outset of an audit. The quality control process should:

       •   stress the “in fact and appearance” aspects of independence;

       •   address potential actions or mitigating factors to consider when deciding on
           appropriate actions to take if potential impairments to independence issues are
           identified; and

       •   address the need to include any pertinent issues related to independence impairments
           in the scope and methodology section of the audit reports.

The NRO Inspector General Audit Policy and Procedures Manual also does not address the
impairment to both personal and organizational independence for non-audit work, and the
safeguards that must be put in place if non-audit work is done.

        Recommendation. We recommend that the Assistant Inspector General for Audits
revise and strengthen procedures to provide more proactive quality control measures to comply
with the GAS independence standard and include procedures and processes to safeguard
personal and organizational independence related to non-audit work. Such procedures could
include:

       •   providing guidance for the proper use and reporting of scope limitations when
           independence is impaired;

       •   providing procedures when non-audit services have been performed for the audit
           client; and

       •   providing procedures if changes in independence occur.

       Management Comments. The IG NRO concurred with the recommendation.

IPA Independence Documentation Requirements. The contractor staff that performed the
financial statement audit signed a contractor form, Independence Confirmation for US
Engagement Personnel. This form is a standard form for this particular contractor and does not
speak to nor cite GAS. The form’s focus is toward an audit of a non-government organization
although it indicates “…applicable rules with respect to the National Reconnaissance Office.”
The form addresses some but not many of the independence elements included in GAS. For
example, the form does not address preconceived ideas toward individuals, groups,
organizations, or objectives of a particular program that could bias the audit; biases, including
those induced by political or social convictions, that result from employment in, or loyalty to, a
particular group, organization, or level of government; or relevant non-audit work. OAIGA
believes that the security requirements used by NRO, including the polygraph examination,
provide assurance of an employee’s honesty and integrity, and the thorough background
investigation that an IPA employee must undergo gives additional credence that the employee is
meeting independence standards in regard to preconceived ideas. We agree with the AIGA that
a certification does not necessarily have to cover all possible actions, but it should explicitly
address GAS and non-audit work.


                                                8
In his January 2002 press release issuing the new Government Auditing Standards on
independence, the Comptroller General of the United States urged the American Institute of
Certified Public Accountants to raise its standards to those contained in Government Auditing
Standards. Therefore, NRO should have procedures to ensure that its contractors comply with
the intent of the Government independence standards “in both fact and appearance.”

       Recommendation. We recommend that the Assistant Inspector General for Audits
include in its RFP and contracts for audit services specific requirements for complying with the
Government Auditing Standard on Independence and required documentation to ensure that the
organization as well as the individual auditors are complying with the independence standard.
The RFP and statement of work should include compliance with standards related to non-audit
work by both the organization and individual auditors related to the audit objectives and NRO.

       Management Comments. The IG NRO concurred with the recommendation. However,
the IG NRO further stated that the IPA would not be performing non-audit work as part of this
contract.

        Our Response. The proposed action is partially responsive to our recommendation. The
comments indicate a misunderstanding of the recommended action; therefore, we request the IG,
NRO reassess and clarify his comments to this recommendation. The purpose of the
recommendation is to ensure that potential contractors specifically address potential impairments
to independence based on non-audit work that the IPA performed or plans to perform as a part of
other contract(s) or work done, not just the contract in process. For example, the IPA or a IPA
staff assigned to the contract could have performed non-audit work for another NRO
organization that is material or significant to the NRO financial statements. Therefore, we
reiterate the need for the contractor to specifically address the non-audit work by both the
organization and the individual auditors. The contractor should be required to identify any non-
audit work that the contractor or their assigned staff have done or plan to do that could relate to
the audit objectives or organizations that the contractor will audit. The NRO OAIGA can then
determine if non-audit work is material or significant and take appropriate actions, which could
include qualify the audit report, institute safeguards, or disqualify the contractor or individual
staff member.

Financial Statement Audit-Contractor Oversight and Quality Assurance Working Papers
and Quality Assurance Plan. The Acting NRO Inspector General transmitted the FY 2002
financial statements audit report by a memorandum in which he stated that the audit was done in
accordance with standards and that he agreed with the IPA opinion. However, the majority of
NRO Office of the Inspector General contractor oversight and quality assurance working papers
were not prepared and reviewed until after the audit report on the FY 2002 financial statements
and the transmittal memorandum agreeing with the conclusions were issued in January 2003.
The 2003 version of GAS emphasizes “Audit documentation should contain support for findings,
conclusions, and recommendations before auditors issue their report.” Although not technically
an audit, we believe that the concept applies to the contract oversight documentation for the
financial statement audit.

The quality assurance plan for the financial statement audit, which was very detailed and
rigorous, included both oversight steps conducted during the audit and quality assurance
procedures that were completed after the audit report was issued. The oversight section should
reflect the GAO/PCIE Financial Audit Manual, section 650, “Using the Work of Others.” The
NRO Office of the Inspector General can ensure the quality of the audit by completing and
documenting steps similar to those required in GAO/PCIE section 650, “Using the Work of


                                                 9
Others,” before issuing the transmittal memorandum attesting to its agreement with the IPA audit
results. The staff can do the additional quality assurance reviews steps after the report is issued
and form the basis for best practices or lessons learned.

Although we recognize the strict statutory requirements and timelines placed on financial
statement opinion audits, the oversight working papers that support the endorsement
memorandum and oversight report and verify execution of the GAO/PCIE Financial Audit
Manual Section 650 steps should be completed before issuing the report. We also recognize that
NRO OAIGA staff was substantially overseeing the work that IPA performed during the course
of the IPA audit. NRO OAIGA staff should complete the documentation of contract oversight
review of the IPA work before issuing its conclusion concerning the adequacy of the IPA work
in the audit report.

       Recommendation. We recommend that the Assistant Inspector General for Audits
       revise its oversight procedures to (1) ensure that documentation of its oversight is
       complete before issuing its transmittal report accepting the contractor’s opinions,
       conclusions, and recommendations and (2) perform quality assurance procedures after
       report issuance for lessons learned separate from oversight procedures.

       Management Comments. The IG NRO concurred with the recommendation.

Transmittal Memorandum for the FY 2002 Financial Statement Audits. In its memorandum
transmitting the FY 2002 financial statement audit report, the IG NRO expressed agreement with
the IPA opinion, findings, and conclusions. However, the transmittal memorandum did not
clearly indicate to what extent the OAIGA performed the contractor oversight and quality
assurance review and any limitations on that review. The transmittal memorandum also did not
acknowledge that the IPA had not completed all its working papers at the time it had provided its
opinion. For example, the working papers documenting the OAIGA oversight of the IPA
contract audit staff for the FY 2002 financial statements audit state that the Office of the
Inspector General did not have sufficient time to ascertain whether all findings were supported or
whether all significant matters had been included in the report. Despite the statement in the
working papers, the audit report did not include a scope limitation and the known effect on the
audit results in accordance with GAS, paragraph 3.29 (1994 version). In addition, the contractor
had not completed its working papers before issuing its reports. This is contrary to the 2003
revision to GAS.
Based on discussion during our review, the Assistant Inspector General for Audits revised the
transmittal letter to eliminate any confusion and now states that the Office of the Inspector
General conducted sufficient review of the IPA work in order to satisfy themselves that the audit
opinion is supported.




                                                10
Appendix C. Report Distribution

Other Defense Organizations
 Director, National Reconnaissance Office
   Inspector General, National Reconnaissance Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform




                                        11
National Reconnaissance Office
Comments




                      13
14
     Final Report
      Reference




     Revised




     Revised




     Revised




15
Final Report
 Reference




Revised




               16
17
18
